2:17-cv-02491-BHH
USCA4 Appeal: 19-1769

Doc: 16

Date Filed 05/26/20
Filed: 05/26/2020

Entry Number 62

Page 1 of 1

Pg: 1 of 1

FILED: May 26, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1769
(2:17-cv-02491-BHH)

CYNTHIA HOLMES, a/k/a C. Holmes, a/k/a Cynthia Holmes, M.D.
Plaintiff - Appellant
v.

THOMAS E. PRICE, Secretary of the Department of Health and Human Services
(HHS)
Defendant - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc. The court also denies the motion for abeyance.
For the Court
/s/ Patricia S. Connor. Clerk

2:17-cv-02491-BHH
USCA4 Appeal: 19-1769

Date Filed 01/27/20

Doc: 11

Entry Number 60

Filed: 01/27/2020

Page 1 of 2

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1769

CYNTHIA HOLMES, a/k/a C. Holmes, a/k/a Cynthia Holmes, M.D.,
Plaintiff - Appellant,
v.

THOMAS E. PRICE, Secretary of the Department of Health and Human Services
(HHS),
Defendant - Appellee.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. Bruce H. Hendricks, District Judge. (2:17-cv-02491-BHH)

Submitted: January 23, 2020

Before WYNN, DIAZ, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Cynthia C. Holmes, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

Decided: January 27, 2020

USCA4 Appeal:2l-b^i^eS249b"c^¥l

Date Pil§£l:W^@b2(Pntr¥3g:Uf1^ 60

Page 2 of 2

PER CURIAM:
Cynthia Holmes appeals the district court’s order accepting the recommendation of
the magistrate judge and granting Defendant’s motion to dismiss pursuant to Fed. R. Civ.
P. 12(b)(1) and for summary judgment pursuant to Fed. R. Civ. P. 56, and a subsequent
order denying reconsideration. The district court referred this case to a magistrate judge
pursuant to 28 U.S.C. § 636(b)(1)(B) (2018). The magistrate judge recommended granting
the motion and advised Holmes that failure to file timely specific objections to the
recommendation would waive appellate review of a district court order based upon the
recommendation.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. See United States v.
Midgette, 478 F.3d 616, 621-22 (4th Cir. 2007); see also Thomas v. Am, 474 U.S. 140,
154-55

(1985).

Although Holmes filed objections to the magistrate judge’s

recommendation, she has waived appellate review because the objections were neither
timely nor specific. Accordingly, we affirm the district court’s orders.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

2

2:17-cv-02491-BHH

Date Filed 05/23/19

Entry Number 53

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA

Cynthia Holmes,
Plaintiff,
v.

)
)
)
)
)
)

Thomas E. Price, Secretary of the Dept.)
of Health and Human Services
)
Defendant.

Civil Action No. 2:17-2491-BHH
ORDER

)
)

This matter is before the Court upon Plaintiff Cynthia Holmes’ (“Holmes” or “Plaintiff’)
motion to alter or amend the summary judgment entered in favor of Defendants. In an
order filed on March 26, 2019, the Court adopted the Magistrate Judge’s Report because
Plaintiff failed to timely file objections to that Report and because Plaintiffs objections were
not sufficiently specific. In the instant motion, filed pursuant to Rule 59(e) of the Federal
Rules of Civil Procedure, Plaintiff asserts that “there is no jurisdiction for the Report and
Recommendation (R&R) or its adoption” and simply rehashes the arguments she raised
in prior filings.
Reconsideration of a judgment pursuant to Rule 59(e) is an extraordinary remedy
that should be used sparingly. See Pac. Ins. Co. v. Am. Nat'l Fire Ins. Co., 148 F.3d 396,
403 (4th Cir.1998); Exxon Shipping Co. v. Baker, 554 U.S. 471,485 n. 5 (2008). Ordinarily,
a court may grant a motion to alter or amend pursuant to Rule 59(e) for only three reasons:
(1) to comply with an intervening change in controlling law; (2) to account for new evidence
not available previously; or (3) to correct a clear error of law or prevent manifest injustice.
Pac. Ins. Co., 148 F.3d at 403. Importantly, after review, the Court finds that Plaintiff has

2:17-cv-02491-BHH

Date Filed 05/23/19

Entry Number 53

Page 2 of 2

failed to point to any change in controlling law, any new evidence not available previously,
or any clear error of law or manifest injustice. Accordingly, the Court denies Plaintiffs
motion to reconsider (ECF No. 50).
AND IT IS SO ORDERED.
/s/Bruce H. Hendricks
The Honorable Bruce Howe Hendricks
May 23, 2019
Charleston, South Carolina
NOTICE OF RIGHT TO APPEAL
The right to appeal this order is governed by Rules 3 and 4 of the Federal Rules of
Appellate Procedure.

2

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA

Cynthia Holmes,

)
)
)
)
)
)

Plaintiff,
v.

Civil Action No. 2:17-2491-BHH

Thomas E. Price, Secretary of the Dept.)
of Health and Human Services
)
Defendant.

ORDER

)
)

This matter is before the Court upon Plaintiff Cynthia Holmes’ (“Holmes” or
“Plaintiff) pro se complaint appealing a decision of the Medicare Appeals Council. The
named Defendant is the Secretary of the United States Department of Health and Human
Services. On July 5, 2018, Defendant filed a motion to dismiss pursuant to Rule 12(b)(1)
of the Federal Rules of Civil Procedure and motion for summary judgment pursuant to Rule
56 of the Federal Rules of Civil Procedure. In accordance with 28 U.S.C. § 636(b)(1)(A)
and (B) and Local Civil Rule 73.02(B)(2)(g) (D.S.C.), the matter was referred to a United
States Magistrate Judge for preliminary review. On October 30, 2018, the Magistrate
Judge issued a Report and Recommendation (“Report”) outlining the issues and
recommending that the Court grant Defendant’s motion. Plaintiff filed objections to the
Report on November 19, 2019.
STANDARDS OF REVIEW
I.

The Magistrate Judge’s Report
The Magistrate Judge makes only a recommendation to the Court.

The

recommendation has no presumptive weight, and the responsibility to make a final

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 2 of 8

determination remains with the Court. Mathews v. Weber, 423 U.S. 261 (1976). The Court
is charged with making a de novo determination only of those portions of the Report to
which specific objections are made, and the Court may accept, reject, or modify, in whole
or in part, the recommendation of the Magistrate Judge, or recommit the matter to the
Magistrate Judge with instructions. 28 U.S.C. § 636(b)(1). In the absence of specific
objections, the Court reviews the matter only for clear error. See Diamond v. Colonial Life
& Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating that “in the absence of a
timely filed objection, a district court need not conduct a de novo review, but instead must
‘only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.’”) (quoting Fed. R. Civ. P. 72 advisory committee’s note).
II.

Federal Rule of Civil Procedure 12(b)(1)
A Rule 12(b)(1) motion for lack of subject matter jurisdiction raises the fundamental

question of whether a court has jurisdiction to adjudicate the matter before it. Fed. R. Civ.
P. 12(b)(1). In determining whether jurisdiction exists, the court is to “regard the pleadings’
allegations as mere evidence on the issue, and may consider evidence outside the
pleadings without converting the proceeding to one for summary judgment.” Richmond,
Fredericksburg & Potomac R.R. Co. v. United States, 945 F.2d 765, 768 (4th Cir. 1991)
(citing Adams v. Bain, 697 F.2d 1213, 1219 (4th Cir. 1982)). “The moving party should
prevail only if the material jurisdictional facts are not in dispute and the moving party is
entitled to prevail as a matter of law.” Id. (citation omitted). The plaintiff bears the burden
of proof on questions of subject matter jurisdiction. See Evans v. B.F. Perkins Co., 166
F.3d 642, 647 (4th Cir. 1999).

2

2:17-cv-02491-BHH

III.

Date Filed 03/26/19

Entry Number 47

Page 3 of 8

Federal Rule of Civil Procedure 56
A court shall grant summary judgment if a party shows that there is no genuine

dispute as to any material fact and the party is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(a). The judge is not to weigh the evidence, but rather to determine if
there is a genuine issue of fact. Anderson v. Liberty Lobby, Inc. ,477 U.S. 242,249 (1986).
If no material factual disputes remain, then summary judgment should be granted against
a party who fails to make a showing sufficient to establish the existence of an element
essential to that party's case, and on which the party bears the burden of proof. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). All evidence should be viewed in the light most
favorable to the non-moving party. See Perini Corp. v. Perini Constr., Inc., 915 F.2d 121,
123-24 (4th Cir. 1990).
ANALYSIS
As an initial matter, the Court finds that Plaintiff’s objections are untimely. As
previously mentioned, the Magistrate Judge filed his Report on October 30, 2018, and
attached to the Report was a notice advising Plaintiff of her right to file specific, written
objections to the Report within fourteen days after being served with a copy of the Report.
Pursuant to Rule 5(b)(2)(C) of the Federal Rules of Civil Procedure, the date of service is
the date the Report was mailed to Plaintiff, which was October 30, 2018. A party receives
three additional days to file objections if served by mail or otherwise allowed under Rule
6 of the Federal Rules of Civil Procedure. Here, adding three days of mail time, Plaintiff

3

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 4 of 8

needed to file her objections on or before Friday, November 16, 2018.1 However, Plaintiff
did not file her objections with the Court until Monday, November 19, 2018.2 Thus,
Plaintiffs objections are untimely.
Even leaving aside the issue of untimeliness, however, the Court also finds that
Plaintiff’s objections are not sufficiently specific. In her 24 pages of objections, Plaintiff
mentions the Report approximately four times. First, she asserts on page one that she
“respectfully enters objections to the Report and Recommendation.” (ECF No. 45 at 1.)
Then, on page seven, she asserts that she requested disposition of this case by a district
judge and “objects to the Magistrate’s denial of that request and enters objections to the
Report and Recommendation (R&R) in whole.” (Id. at 7.) She contends that the Report
omits materially important public issues and disputes the Report’s purported facts without
identifying which facts she disputes. (Id.) On page ten, Plaintiff states that the “R&R errs
in effectively denying the intended beneficiary, the patient, the rights and protections
Congress intended and granted to parties under HIPAA’s Privacy Rule ....” (Id. at 10.)
Finally, on page thirteen, Plaintiff again asserts that she requested disposition by a district
judge; she contends “there is and was no consent for R&R” and “disputes the R&R in
whole.” (ECF No. 45 at 13.) The remainder of Plaintiff’s objections consist of portions of
her prior response in opposition to Defendant’s motion, and overall, the Court finds that
Plaintiff does not specifically point to any errors in the Magistrate Judge’s analysis of the

1 Pursuant to Rule 6 of the Federal Rules of Civil Procedure, the Court excludes the date of mailing,
October 30, 2018, and counts every day including intermediate Saturdays and Sundays. Fed. R. Civ. P. 6.
Thus, Plaintiffs fourteen days, plus three additional days allowed for service by mail, ended on Friday,
November 16, 2018.
2 The time stamp on Plaintiffs objections indicates that she filed them in person on Monday,
November 19, 2018.

4

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 5 of 8

facts or law applicable to Plaintiff’s claims. (Cf. ECF No. 34 at 3-12 and ECF No. 45 at 1222.) Rather, Plaintiff simply reargues her entire case under the guise of objecting.
The United States District Court for the Western District of Virginia once reviewed
objections to a Magistrate Judge's Report that were copied directly from prior pleadings
and determined that this practice does not constitute the submission of specific, written
objections and does not entitle a plaintiff to de novo review. See Veney v. Astrue, 539 F.
Supp. 2d 841, 845 (W.D.Va. 2008). Specifically, in Veney, the court stated:
A general objection such as that offered by Plaintiff fails to satisfy the
requirements of Rule 72(b) and 28 U.S.C. § 636(b)(1 )(C). See United States
v. Midgette, 478 F.3d 616, 621-22 (4th Cir. 2007) ("Section 636(b)(1) does
not countenance a form of generalized objection to cover all issues
addressed by the magistrate judge; it contemplates that a party's objection
to a magistrate judge's report be specific and particularized .. .."); Page v.
Lee, 337 F.3d 411,416 n. 3 (4th Cir. 2003) ("[Petitioner's failure to object to
the magistrate judge's recommendation with the specificity required by the
Rule is, standing alone, a sufficient basis upon which to affirm the judgment
of the district court...."). Accordingly, "[a] general objection to the entirety
of the magistrate's report has the same effects as would a failure to object."
Howard v. Sec'y of Health and Human Servs., 932 F.2d 505, 509 (6th Cir.
1991); see also Hyatt v. Town of Lake Lure, 314 F. Supp. 2d 562, 580
(W.D.N.C. 2003).
539 F. Supp. 2d 841, 845 (W.D.Va. 2008); see also Hobek v. Boeing Company, 2017 WL
3085856, *2 (D.S.C. July 20, 2017) (quoting the same).
In Veney, the plaintiffs objections were “an almost verbatim copy of the ‘Argument’
section” of the plaintiffs brief, and the court explained that it was improper for Plaintiff “to
seek re-argument and reconsideration of her entire case in the guise of objecting." Id. at
844; see also Hobek v. Boeing Company, 2017 WL 3085856, *2 (D.S.C. July 20, 2017).
Indeed, the Court finds that such is the case here, and the Court agrees with Veney that
allowing a litigant to seek de novo review of a case under these circumstances makes
5

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 6 of 8

reference to a Magistrate Judge useless. See Veney, 539 F. Supp. 2d at 845 (quoting
Howard, 932 F.2d at 509) (“The functions of the district court are effectively duplicated as
both the magistrate and the district court perform identical tasks. This duplication of time
and effort wastes judicial resources rather than saving them, and runs contrary to the
purposes of the Magistrates Act.’”). As the Fourth Circuit explained in Midgette:
To conclude otherwise would defeat the purpose of requiring objections. We
would be permitting a party to appeal any issue that was before the
magistrate judge, regardless of the nature and scope of objections made to
the magistrate judge’s report. Either the district court would then have to
review every issue in the magistrate judge’s proposed findings and
recommendations or courts of appeals would be required to review issues
that the district court never considered. In either case, judicial resources
would be wasted and the district court’s effectiveness based on help from
magistrate judges would be undermined.
478 F.3d at 22.
Moreover, with respect to Plaintiff’s assertion that she requested disposition by a
district judge and did not consent to the entry of a Report and Recommendation, 28 U.S.C.
§ 636(b)(1)(B) specifically permits a district judge to designate a magistrate judge “to
submit to a judge of the court proposed findings of fact and recommendations for the
disposition, but the judge of the court, of [motions to dismiss or for summary judgment].”
And the Local Civil Rules for the District of South Carolina provide for the automatic
reference to a magistrate judge of “all pretrial proceedings involving litigation by individuals
proceeding pro se.” Local Civil Rule 73.02(B)(2)(e). Thus, Plaintiff’s argument that she did
not consent to the Magistrate Judge’s Report is unavailing.
In all, the Court finds that Plaintiff failed to make either timely or specific objections
to the Magistrate Judge’s Report, and “Plaintiff will not be given the second bite of the
apple [he] seeks.” Veney, 539 F. Supp. 2d at 846. Accordingly, Plaintiff is not entitled to
6

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 7 of 8

de novo review, and the Court simply must satisfy itself that the Magistrate Judge has
made no clear error on the face of the record. See also Holbrooks v. Colvin, 2015 WL
5562736, *2 (D.S.C. Sept. 21,2015) (reviewing a Magistrate Judge’s Report for clear error
where the plaintiff made general and conclusory objections). After review, the Court has
no difficulty in finding that the Magistrate Judge’s thorough and well-reasoned Report is
void of clear error. Accordingly, the Court adopts the Magistrate Judge’s Report in full,
incorporates it herein, and finds that Plaintiff’s Attachment A claims are subject to dismissal
for lack of subject matter jurisdiction, and Plaintiffs Attachment B Claims are subject to
summaryjudgment because substantial evidence supports Defendant's determination that
Plaintiff failed to submit evidence to establish that the billed services were actually
rendered and were medically necessary.
CONCLUSION
Based on the foregoing, it is hereby ORDERED that the Magistrate Judge’s Report
(ECF No. 43) is adopted and specifically incorporated herein; Plaintiff’s objections (ECF
No. 45) are overruled; and Defendant’s motion to dismiss and for summaryjudgment (ECF
No. 30) is granted.
IT IS SO ORDERED.
/s/Bruce H. Hendricks
The Honorable Bruce H. Hendricks
United States District Judge
March 26, 2019
Charleston, South Carolina

7

2:17-cv-02491-BHH

Date Filed 03/26/19

Entry Number 47

Page 8 of 8

NOTICE OF RIGHT TO APPEAL
The parties have the right to appeal this order within the time period set forth in
Rules 3 and 4 of the Federal Rules of Appellate Procedure.

8

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 1 of 17

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA

Cynthia Holmes,

)

v.

)
)
)
)

Plaintiff,

Civil Action No. 2:17-2491 -BHH-BM

) REPORT AND RECOMMENDATION
Thomas E. Price, Secretary of the Dept,
of Health and Human Services,
Defendant.

)
)
)
)

This action has been filed by the Plaintiff, pro se,1 appealing a decision of the
Medicare Appeals Counsel denying her claims for reimbursement (or to avoid repayment of
overpayments) for physician services Plaintiff provided to beneficiaries (patients). The named
Defendant is the Secretary of the U. S. Department of Health and Human Services.
The Defendant filed a motion for summary judgment pursuant to Rule 56
Fed.R.Civ.P., on July 5, 2018. As the Plaintiff is proceeding pro se, a Roseboro Order was entered
by Court on July 6,2018, advising Plaintiff of the importance of a dispositive motion and of the need
for her to file an adequate response. Plaintiff was specifically advised that if she failed to adequately
respond, the Defendant’s motion may be granted, thereby ending her case. Plaintiff thereafter filed

'It is noted that Plaintiff is a frequent filer of pro se litigation in this Court. Aloe Creme
Laboratories. Inc, v. Francine Co., 425 F.2d 1295, 1296 (5th Cir. 1970)[a federal court may take
judicial notice of the contents of its own records].
1

U

2:17-CV-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 2 of 17

a response in opposition to the Defendant’s motion on August 10, 2018, following which the
Defendant filed a reply memorandum on August 16, 2018.
The Defendant’s motion is now before the Court for disposition.2
Background and Evidence
In her Complaint, Plaintiff states that she is seeking Court review of the decision of
the Medicare Appeals Council pursuant to § 1869(b) of the Social Security Act, 42 U.S.C. §
1395ff(b), and 42 C.F.R. § 405.1130. Plaintiff argues that the decision of the Medicare Appeals
Council should be overturned because it is not supported by substantial evidence in the case record
and/or because of legal error.
Plaintiff alleges that she is a physician and that she filed claims for Medicare payments
or reimbursements for certain specified physician services, but that her requests for payment or
reimbursement were wrongfully denied by the Defendant based on a purported failure of the Plaintiff
to provide required patient information. However, Plaintiff alleges that her practice is a “noncovered” practice under HIPAA,3 and that her patients’ medical records are therefore covered by S.C.
Code Ann. § 44-115-40, which provides (subject to limited exceptions) that “a physician shall not
honor a request for release of copies of their medical records without the receipt of express written
consent of the patient or person authorized by law to act on behalf of the patient”. Plaintiff alleges
in her Complaint that the “plain language” of this statute requires the Defendant to provide express

2This case was automatically referred to the undersigned United States Magistrate Judge for
all pretrial proceedings pursuant to the provisions of 28 U.S.C. § 636(b)(1)(A) and (B) and Local
Rule 73.02(B)(2)(e), D.S.C. The Defendant has filed a motion for summary judgment. As this is a
dispositive motion, this Report and Recommendation is entered for review by the Court.
3Health Insurance Portability and Accountability Act of 1996.
2

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 3 of 17

written consent of the patient for release of copies of their medical records. However, Plaintiff argues
that an Administrative Law Judge (ALJ) dismissed her “Attachment A” claims as well as her
“Attachment B” claims, all of which sought payment or reimbursement for physician services she had
provided to patients, due to Plaintiff’s failure to obtain these consents in order to provide the
necessary patient information. Plaintiff also complains that she had a telephone hearing with the ALJ
instead of an in-person hearing, and that she was also wrongfully denied a waiver, or, alternatively,
she requests a waiver as part of this lawsuit.
Although Plaintiffs statement of her claim in her Complaint is somewhat confusing,
she has attached various administrative documents and exhibits to her Complaint which provide some
clarity. In an attached Notice of Order and Decision of Medicare Appeals Council (Case Docket No.
M-16-2100), it is set forth that on September 14, 2015 an ALJ issued an order of dismissal of
Plaintiffs claims for physician services Plaintiff purportedly provided to beneficiaries on the dates
of service identified in Attachments A and B. The decision indicates that for the claims identified
in Attachment A, the ALJ found that the record did not contain determinations by the prior levels of
administrative review, and therefore those claims were dismissed for failure of the Plaintiff to exhaust
her administrative remedies. As for the claims identified in Attachment B, the ALJ found that
Plaintiff had not submitted any medical records to support that the services she had provided were
medically reasonable and necessary, and therefore Plaintiffs claim for reimbursement for those
services were denied. The Appeals Council order further notes that it was undisputed that the
Medicare Administrative contractor requested that Plaintiff provide medical records to document the
medical necessity of the services for which she had submitted claims, but that Plaintiff did not
provide the requested documentation.

Specifically with respect to Plaintiffs claims for
3

2:17-CV-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 4 of 17

reimbursement for the services identified in Attachment B, the ALJ cited to the regulations in 42
C.F.R. § 424.5(a)(6) and found that Plaintiff was required to submit medical records or other
supporting documentation to establish that the services billed for were actually rendered, and that the
services were medically reasonable and necessary. Although the order indicates that the ALJ agreed
with the Plaintiff that authorizations from the beneficiaries would be required to submit the
documentation, the ALJ rejected Plaintiffs position that it was the contractor, not the Plaintiff, who
had the responsibility for obtaining those authorizations.
Continuing further, with respect to Plaintiffs request for review of the services
identified in Attachment A, the Appeals Council’s order notes that before an appellant may seek
review of a claim at any level of review, the prior level of review must have considered the claim and
issued a determination, and that with respect to the claims identified on Attachment A, Plaintiff did
not assert, and indeed the record did not show, that those claims had proceeded through the
redetermination and reconsideration steps of the appeal process as required by 42 C.F.R. §
405.1000(a). The Appeals Council therefore determined that the ALJ had correctly determined that
Plaintiff did not have a right to an ALJ hearing on those claims, because she had not exhausted her
administrative remedies.
With respect to the claims for services identified on Attachment B, although the
Appeals Council determined that the ALJ had erred procedurally by dismissing those claims rather
than issuing a decision on the merits, that since the ALJ had held both a hearing and a pre-hearing
conference in which the Plaintiff had participated and was afforded a full and fair opportunity to
present her case (with the ALJ also allowing Plaintiff an additional opportunity to submit
documentation to support her claims), the Appeals Council found that the record was fully developed
4

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 5 of 17

and ripe for decision, and the Appeals Council issued it own decision on the merits. Specifically, the
Appeals Council found that the ALJ did not abuse his discretion by denying Plaintiffs request for
an in-person hearing, as the hearing recording made clear that the ALJ had provided Plaintiff with
a full and fair opportunity to present her case, nor did the ALJ abuse his discretion by not remanding
Plaintiffs claims because the EOBs4 were not in the record. The Appeals Council determined that
although Plaintiff argued that she had never been notified of the reason for the denial of her claims,
the record indicated that both the contractor and the QIC5 had explained to the Plaintiff that their
denials were based on a lack of supporting documentation, and that Plaintiff had not shown or
explained why the EOBs were necessary (or even relevant) to adjudicating the underlying merits of
her claim.6 The Appeals Council further concluded that the ALJ had correctly found that it was the
Plaintiffs responsibility to provide the documentation showing that the services for which she
submitted claims were reasonable, necessary, and complied with Medicare coverage criteria, and that
she had failed to do so. Moreover, with respect to the claims that were initially paid, but were later
reopened and denied, the Appeals Court’s order notes that Medicare contractors have the authority
to request additional information, on either a prepayment or a post payment basis, to determine
whether a claim submitted meets all requirements for coverage and payment, and that such
reopenings are an unreviewable discretionary action on the part of a contractor. Further, once
reopened, in order obtain or retain Medicare payment for her Part B claims, it was Plaintiffs
4Explanation of Benefits.
Qualified Independent Contractor.
6The Appeals Council order further states that Plaintiff had herself informed the ALT at the
pre-hearing conference that her office actually had the EOBs (or corresponding remittance advices)
for each claim, but had failed to submit them to either the ALJ or to the Council.
5

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 6 of 17

responsibility to submit medical and other supporting records when the contractor notified her that
additional documentation was necessary to process her claims, and that Plaintiff had failed to do so.
Finally, the Appeals Council determined that Plaintiffs argument that it was the
contractor who was required to obtain authorizations from the respective beneficiaries and provide
those authorizations to the Plaintiff was without merit, noting that (as the ALJ observed) it was the
Plaintiffs burden to prove entitlement to payment and to obtain any authorizations from the
beneficiaries necessary to demonstrate her entitlement to Part B payment. See also 42 C.F.R. §
424.5(a)(6). As for Plaintiffs request in the alternative for a waiver, the Appeals Council noted that
§ 1870(b) provides that recoupment of an overpayment to a provider or supplier may be waived if the
provider or supplier was without fault in receiving the overpayment, but that a supplier is not without
fault if it does not submit documentation to substantiate that services billed to the program were
covered. See 42 U.S.C. § 1395gg(b). Since Plaintiff did not submit any documentation to
substantiate that the services she had billed to the program were covered, the Appeals Council
determined that she was not without fault, and that recovery of the overpayment would not be waived.
See generally. Plaintiffs Exhibit [Notice of Order and Decision of Medicare Appeals Council],
Plaintiff has also attached as an exhibit to her Complaint a copy of a letter she received
from an attorney, wherein the attorney opines that Plaintiffs Ophthalmologist practice is not subject
to HIPPA privacy regulations and is instead regulated under state and local medical information
privacy law. fSee letter from Nancy L. Perkins, Esq., dated August 25,2015]. In a second letter from
the same attorney, this attorney further opines that under both HIPPA and South Carolina law (with
respect to non-covered entities under HIPPA) disclosure of medical records (with limited exceptions)
is not permitted without the patient’s authorization. [See letter from Nancy L. Perkins, Esq., dated
6

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 7 of 17

March 6, 2017],
As an attachment to the motion for summary judgment, the Defendant has submitted
a copy of the Administrative Record [“AR”] involving Plaintiffs reimbursement claims, which has
been filed under seal. See Court Docket Nos. 22 and 23.
Discussion
This matter arises under Title XVIH of the Social Security Act 42 U.S.C. § 1395, et
seq. (the Medicare Act), a federally funded health insurance program for the elderly and disabled.
See 42 U.S.C. § § 1395c, 1395j, and 1395k. More specifically, Plaintiffs claims in this matter are
under Medicare Part B, which is a supplemental program that pays for physician and outpatient
services. See 42 U.S.C. § 1395j, et seep; see also 42 C.F.R. Parts 407 and 410. The Medicare part
B program is administered by The Centers for Medicare & Medicaid Services (CMS) in conjunction
with Medicare contractors. 42 U.S.C. § § 1395kk-l, 1395h(a), and 1395u(a). It is the responsibility
of the Medicare contractors to make coverage determinations, to make payments for items and
services provided by suppliers (physicians) to Medicare beneficiaries, to audit claims and determine
overpayments or under payments, to adjust for any incorrect payments, and to recover for over­
payments. See 42 U.S.C. § 1395kk-1(a)(4); see also 42 C.F.R. §§ 421.200, 421.400 et. seg.
As authorized by the Medicare Act, contractors typically pay claims immediately upon
receipt of a claim as long as the claim does not contain any obvious problems. These payments are
then subject to post-payment audits in order to verify that the payments were proper. Maximum
Comfort, Inc, v. Secretary of Health and Human Services, 512 F.3d 1081, 1084 (9th Cir. 2007);
Gulfcoast Medical Supply, Inc, v. Secretary of Department of Health and Human Services, 468 F.3d
1347,1349 (11th Cir. 2006). Among other things, the amounts billed by providers and suppliers must
7

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 8 of 17

be for services that were “reasonable and necessary” in accordance with Medicare coverage policies
and program instructions, and when a post-payment audit reveals that a payment was improper, the
Secretary may reopen or advise an initial determination or reconsider determination. See 42 U.S.C.
§ §1395ddd(a)-(b) and 1395ff(b)(l)(G); see also 42 C.F.R. § § 405.980(a) and 421.304.
In order for a supplier (such as the Plaintiff) to appeal an initial determination, they
must first request a redetermination, which is then conducted by an employee of the Medicare
contractor who was not involved in the initial determination. See 42 U.S.C. § 1395ff(a)(l) and (3);
see also 42 C.F.R. § § 405.940, 405.948. If the supplier remains dissatisfied following the
redetermination, they may then request reconsideration by a QIC within one hundred eighty days.
If dissatisfied with the QIC’s reconsideration decision, the supplier may then request a hearing before
an ALJ within sixty days. Thereafter, the supplier may request a de novo hearing of the ALJ’s
decision by the Medicare Appeals Council within sixty days. The Appeals Council decision on the
merits is the final decision of the Secretary. See 42 U.S.C. § 1395ff(b)(l)(A) & (B); see also 42
C.F.R. § 405. If still dissatisfied, the supplier may then seek review ofthe decision by filing an action
in United States District Court within sixty days. See 42 U.S.C. § § 405(g), 1395ff(b)(l)(A);
1395ff(b)(2).
Upon the filing of a federal court action, judicial review of the Secretary’s factual
findings must be based solely on the administrative record, and is limited to determining 1) whether
the record contains substantial evidence to support the ALJ’s findings, and 2) whether the correct
legal standards were applied. See 42 U.S.C. § § 1395ff(b), 1395w-22(g)(5); see also Byrd v.
Commissioner of Social Security, 699 F.3d 337, 340 (4th Cir. 2012); Johnson v. Barnhart, 434 F.3d
650, 653 (4th Cir. 2005) [“Substantial evidence is such relevant evidence as a reasonable mind might
8

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 9 of 17

accept as adequate to support a conclusion”]. However, it is important to note that the supplier may
seek federal judicial review of the final agency decision only after they have exhausted every step of
the administrative appeals process. See 42 U.S.C. § 1395ff(b)(l)(A); see also42 C.F.R. §405.1136.
Further, the Appeals Council review of an ALJ jurisdictional dismissal of a claim is not subject to
further review, including even judicial review. See 42 C.F.R. § 405.1116.
Attachment A Claims
The record before the Court shows that Plaintiffs claims for payment or
reimbursement are for various services allegedly provided to beneficiaries that were listed on two
separate attachments - Attachment A and Attachment B (both indicating dates of service provided).
The Medicare contractor requested that Plaintiff provide medical records to document that the
services provided by her were actually rendered and were reasonable and necessary, but Plaintiff
failed to provide the requested medical records. See AR,7 pp. 4, 363, 403-583. The Medicare
contractor then denied coverage for the services, either initially or (with respect to claims for which
payment had previously been made) after reopening the claims. See AR, p. 4. The record reflects
that Plaintiff also did not provide the requested medical records to the QIC. See AR,p. 151-182,869900, 917-922, 1041-1072, 1089-1094.
Significantly, the record shows that although Plaintiff sought redetermination and
reconsideration of most of her Attachment B claims, there is no record that Plaintiff s Attachment
A claims had either a redetermination decision by the Medicare contractor or a reconsideration
determination by the QIC. The ALJ therefore dismissed Plaintiffs request with respect to her

’Administrative Record.
9

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 10 of 17

Attachment A claims for failure to exhaust. See AR, p.5,7, 74-76. On Appeal, the Appeals Council
confirmed that the ALJ’s dismissal of the Attachment A claims was proper because Plaintiff had
failed to exhaust her administrative remedies as to those claims. See AR, p. 6-7. Therefore, as
Plaintiff failed to exhaust her administrative remedies with respect to her Attachment A claims, she
is not entitled to judicial review with respect to those claims. See 42 U.S.C. § 1395ff(b)( 1)(A).
Plaintiff makes two arguments relating to her Attachment A claims. Her first
argument, that her Attachment A claims are somehow exempt from the exhaustion requirement, is
patently without merit. Plaintiffs second argument is that she did request a redetermination, but that
the Defendant wrongfully “thwarted review and wrongfully prevented redetermination by
representing that the request for review [was] not necessary”. However, although it is arguable
Plaintiff may have made some general assertions on this issue to the ALJ, Plaintiff failed to pursue
or make any such assertion before the Appeals Council. See AR at 6-7, 57-68; see also AR at 2293,
2297, 2305. Thus, Plaintiff may not make that assertion here. See United States v. L.A. Tucker
Truck Lines, Inc., 344 U.S. 33, 37 (1952) [“[A]s a general rule ... courts should not topple over
administrative decisions unless the administrative body not only has erred, but has erred against
objection made at the time appropriate under its practice.”]; Pleasant Valley Hosp., Inc.v. Shalala,
32 F.3d 67, 70 (4th Cir. 1994) [“As a general matter, it is inappropriate for courts reviewing appeals
of agency decisions to consider arguments not raised before the administrative agency involved.”];
CSX Transp., Inc, v. Surface Transp. Bd., 584 F.3d 1076,1079 (D.C. Cir. 2009) [acknowledging the
“well-established doctrine of issue waiver, which permits courts to decline to hear arguments not
raised before the agency where the party had notice of the issue”]; Nuclear Energy Inst, v. EPA, 373
F.3d 1251, 1290 (D.C. Cir. 2004) (per curiam) [“To preserve a legal or factual argument, ... [a]
10

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 11 of 17

proponent [must] have given the agency a ‘ fair opportunity’ to entertain it in the administrative forum
before raising it in the judicial one.”] {quoting Wash. Ass'n for Television & Children v. FCC, 712
F.2d 677, 681 (D.C.Cir.1983)).
As such, as Plaintiff failed to exhaust her administrative remedies with respect to the
Attachment A claims, this Court is without jurisdiction to review Plaintiffs claims with respect to
her Attachment A claims. See 42 U.S.C. § 1395ff(b)(l)(A); see also 42 C.F.R. § § 405.960,
405.1000(a), 405.1002,405.1116. Therefore, Plaintiffs claims relating to her Attachment A claims
should be dismissed.
Attachment B Claims
Plaintiff did exhaust her administrative remedies with respect to her Attachment B
claims. However, the record contains substantial evidence to support the decision to deny Plaintiff s
reimbursement for these claims due to her own well-documented failure to provide the necessary
information to justify her requested reimbursement payments.
The Medicare Act provides that “no payment may be made under Part A or Part B for
any expenses incurred for items or services . . . which . . . are not reasonable and necessary for the

8As an attachment to her response filed in opposition to the Defendant’s motion, Plaintiff
attached an affidavit in which argues that she requested a review, redetermination, and
reconsideration and/or appeal for “essentially all claims” in both her Attachments A and B, and that
any failure by her to exhaust her administrative remedies is due to affirmative misconduct by the
Secretary and/or agents of the Secretary. However, even if Plaintiff s affidavit was proper evidence
with respect to her claim, it merely reiterates her arguments in her Complaint and her response brief
that the Defendant (or his agents) failed to timely process and pay her claims, required information
or documentation from her that was not required by, or was even prohibited for her to provide, under
federal or state law, and that she should not be punished for complying with the plain language of the
applicable state statute with respect to privacy of patient information. Those arguments are all
without merit, as is noted and discussed hereinabove.
11

2:17-cv-02491-BHH

Date Filed 10/30/18

diagnosis or treatment of illness or injury

Entry Number 43

Page 12 of 17

See 42 U.S.C. § 1395y(a)(l)(A); see also 42 C.F.R.

§411.15(k)( 1). In determining what is reasonable and necessary, the Secretary has broad discretion
to determine what information to require as a condition of payment; Maximum Comfort, Inc., 512
F.3d at 1088; Community Hospital v. Thompson, 323 F.3d 782,789 (9th Cir. 2003); and the physician
submitting a claim has the burden of establishing that the medical care for which reimbursement is
sought was reasonable and necessary. See 42 U.S.C. § 13951(e); see also 42 C.F.R. § 424.5(a)(6).
Moreover, if a physician fails to respond to a request for additional information “within the specified
timeframes, the medical review department will likely deny the service as not reasonable and
necessary based on a lack of documentation”. See Medicare Claims Processing Manual (MCPM),
Chapter 34, ^ 10.3.
Here, with respect to Plaintiffs submitted claims for services provided to beneficiaries
as shown on her Attachment B, the record reflects that the Medicare contractor requested that
Plaintiff provide medical records to document that the services she provided were actually rendered
and were reasonably necessary, but that Plaintiff refused to submit the medical records for these
patient visit. See AR, pp. 4, 363, 403. As a result, the Medicare contractor denied coverage for the
services, either initially or after reopening the claims. Id., p. 4. The record further reflects that
Plaintiff also failed to provide these medical records to the QIC. Id.,pp. 151-182, 869-900,917-922,
1042-1072, 1089-1094.

When Plaintiff sought redetermination and reconsideration for the

Attachment B claims; see AR, pp. 16-17, 256-320; she argued that it was the Medicare contractor
who should have obtained the necessary written authorizations from the relevant patients so that
Plaintiff could produce their medical records; however, the ALJ rejected that argument, finding that
it was Plaintiff’s obligation to obtain these written authorizations from her patients. See AR, pp. 5 812

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 13 of 17

61,75. The ALJ therefore dismissed Plaintiffs Attachment B claims, finding that Plaintiffhad failed
to submit medical records sufficient to meet her burden of establishing that the services for which she
had billed Medicare were actually rendered and were reasonable and necessary. Id., p. 75.
As noted, the Appeals Council found that the ALJ erred by procedurally dismissing
all of the Attachment B claims, since those claims had, for the most part, been subjected to
redetermination and reconsideration, but the Appeals Council then nevertheless rendered a decision
on the merits regarding the Attachment B claims, affirming the ALJ’s determination that it was
Plaintiffs responsibility to provide the documentation sufficient to show that the services underlying
the Attachment B claims were actually provided and were reasonable and necessary. Id., pp. 7-13.
See also. Discussion, supra [reciting findings of Appeals Council order]. These findings are
supported by substantial evidence in the case record. Community Hospital, 323 F.3d at 789 [Noting
that the Medicare statute “specifically granted the Secretary broad discretion as to what information
to require as a condition of payment to providers under the Medicare program”]; Almy v. Sebelius,
679 F.3d 297, 302-303 (4th Cir. 2012) [Finding that because the determination of what is reasonable
and necessary also requires a significant degree of medical judgment, a reviewing Court must
generally be at its most deferential]. Although Plaintiff argues that state privacy laws prevented her
from submitting the requested medical records, that is not the issue here. Rather, the question is who
had the responsibility for obtaining the necessary authorizations from Plaintiffs patients so as to
allow her to then provide those records to the Medicare contractor. As noted, Plaintiff had the burden
of showing entitlement to payment or reimbursement for these services, and it was therefore her
obligation to obtain the authorizations necessary to allow her to submit the medical records needed
to establish that the services underlying her Medicare claims were actually rendered and were
13

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 14 of 17

reasonable and necessary. See AR, p. 12, citing 42 C.F.R. § § 424.32, 424.36, MCPM, Chapter 1,
at U U 30.3.2, 50.1.1; cf. Nephropathology Associates, PLC v. Sebelius, No.12-233, 2013 WL
3285685 at * 4 (E.D.Ark. June 27, 2013) [Finding that the Secretary’s interpretation that the burden
remains on the entity submitting the claim is not unreasonable]; Ojebuoboh v. Sebelius, No. 11-17,
2012 WL 1932043 at * 1 (E.D.N.C. May 29, 2012) [“In submitting a claim for payment, a provider,
such as a physician, is obligated to furnish sufficient information to enable HSS to determine whether
payment is due and its amount.”]. Additionally, the fact that some of Plaintiff s claims may have
been initially reimbursed by Medicare notwithstanding the absence of these medical records does not
save Plaintiffs claim from dismissal, as (as has previously been noted) the CMS may, through its
contractors, initially pay such claims subject to conducting a subsequent post payment review of the
propriety of claims for reimbursement, reopen them, and, if appropriate, deny the claim. See AR, pp.
9-10.9

Therefore, even though it was Plaintiffs burden to show entitlement to payment or

reimbursement, and notwithstanding Plaintiff having been given opportunities throughout the
administrative appeal process to submit the requested medical records, the record shows that she
failed to do so. See AR, pp. 6-7, 12. Therefore, substantial evidence supports the decision to deny
Plaintiffs reimbursement for these claims. Johnson, 434 F.3d at 653 [“Substantial evidence is such
relevant evidence as a reasonable mind might accept as adequate to support a conclusion”].
Plaintiffs separate arguments that the ALJ’s decision is not supported by substantial
evidence or was legally incorrect because she was not afforded an in-person hearing and because
discovery was not allowed so that she could obtain EOBs are also without merit. First, Plaintiff was

9As previously noted, the decision on whether or not to reopen an initial determination is not
itself even a determination subject to judicial review. See 42 C.F.R. § 405.926(1); 405.980(a)(5).
14

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 15 of 17

unable to explain during the hearing how the EOBs were even relevant to her claims. See AR, pp.
2294-2302. Moreover, the record reflects that Plaintiff already had the EOBs, but then failed to
herself submit them to either the ALJ or to the Appeals Council. Id., pp. 9, 2280-2282, 2291-2294.
As for Plaintiffs complaint about not having an in-person hearing, the case record reflects that the
ALJ provided, and the Appeals Council found, that Plaintiff was afforded a full and fair opportunity
to present her case during the telephonic hearing. Id., pp. 8, 2280, 2288-2307. Plaintiff had no
“right” to an in-person hearing, as such hearings are offered in Medicare reimbursement disputes only
in very exceptional circumstances (which were not present in this case). See 42 U. S. C. §405.1000(b)
[The hearing before the ALJ maybe conducted “in-person, by video-conferencing, or by telephone.”];
42 U.S.C. § 405.1020(b) [an in-person hearing need be conducted only if “special or extraordinary
circumstances exist.”].
Finally, Plaintiffs assertion that she should have been allowed or granted a waiver
under the facts presented is also without merit, as the administrative finding that Plaintiff was not
entitled to a waiver is supported by substantial evidence in the case record. Id., pp. 12-13. Title 42
U.S.C. § 1395pp(a)(2) provides that a waiver of recovery may be provided where a supplier did not
know, and could not reasonably have been expected to know, that services were not covered by
Medicare, while 42 U.S.C. § 1395gg(b)(l) provides that a recoupment of a Medicare overpayment
from a supplier may be waived if the supplier was without fault in receiving the overpayment.
However, as a Medicare supplier, Plaintiff is deemed to have actual or constructive knowledge of
non-coverage where she refused to submit the requested medical records needed to evaluate whether
her services met the applicable criteria for Medicare payment. As a supplier, Plaintiff is also not
deemed to be “without fault” where she fails to submit documentation to substantiate that services
15

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 16 of 17

billed to Medicare were covered by the program. See 42 C.F.R. § 411.406(e)(1), (e)(3). Therefore,
there is no reversible error in the Appeals Council determining that a waiver was not warranted in this
case. SeeAR, pp. 12-13.
Conclusion
Based on the foregoing, it is recommended that the Court affirm the Secretary’s final
decision dismissing Plaintiffs Attachment A claims for lack of subject matter jurisdiction, and
Plaintiffs Attachment B claims because substantial evidence supports the Secretary’s determination
that Plaintiff failed to submit evidence to establish that the billed services were actually rendered and
were reasonably necessary.
The parties are referred to the Notice Page attached hereto.

Bristow Marchant
United States Magistrate Judge
October 30, 2018
Charleston, South Carolina

16

2:17-cv-02491-BHH

Date Filed 10/30/18

Entry Number 43

Page 17 of 17

Notice of Right to File Objections to Report and Recommendation

The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a Defendants’ Exhibit novo
review, but instead must ‘only satisfy itself that there is no clear error on the face of the record in
order to accept the recommendation.’” Diamond v. Colonial Life &Acc. Ins. Co., 416 F.3d 310 (4th
Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ. P.
6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin Blume, Clerk
United States District Court
Post Office Box 835
Charleston, South Carolina 29402
Failure to timely file specific written objections to this Report and Recommendation will
result in waiver of the right to appeal from a judgment of the District Court based upon such
Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am, A1A U.S. 140 (1985); Wright v. Collins,
766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

17

